TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Development of Specific Long-Term
                      Measures and Targets Improved the
                     Internal Revenue Service’s Strategic
                               Plan (2005 – 2009)



                                         August 23, 2007

                              Reference Number: 2007-10-140




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 23, 2007


 MEMORANDUM FOR ACTING COMMISSIONER, INTERNAL REVENUE SERVICE

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Development of Specific Long-Term
                               Measures and Targets Improved the Internal Revenue Service’s
                               Strategic Plan (2005 – 2009) (Audit # 200610017)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Strategic
 Plan (2005 – 2009). The overall objective of this review was to determine whether the Strategic
 Plan meets the requirements of the Government Performance and Results Act of 1993 (GPRA)1
 and Office of Management and Budget (OMB) Circular A-11 (Preparation, Submission and
 Execution of the Budget) to establish the IRS’ highest priority goals and identify strategies to
 achieve them. This review was part of our planned audit coverage of the IRS and is included in
 the Treasury Inspector General for Tax Administration Fiscal Year 2006 Annual Audit Plan.

 Impact on the Taxpayer
 With the addition of new long-term measures and targets, the Strategic Plan (2005 – 2009)
 articulates the IRS’ major strategies, allows taxpayers to see what it expects to accomplish over
 the next several years, and provides the means to better determine its progress toward those
 goals. A well-designed Strategic Plan provides taxpayers with transparency of IRS strategic
 goals and how it intends to accomplish them.

 Synopsis
 The Strategic Plan (2005 – 2009) complies with the major requirements of the GPRA, OMB
 Circular A-11, and the Department of the Treasury and represents an improvement over the prior

 1
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
 39 U.S.C.).
                The Development of Specific Long-Term Measures and Targets
                          Improved the Internal Revenue Service’s
                                Strategic Plan (2005 – 2009)


Strategic Plan (2000 – 2005). The current Plan describes the IRS’ three strategic goals
(Taxpayer Service, Enforcement, and Modernizing the IRS) in a manner that is clear, easy to
understand, and concise. The goals are supported by detailed objectives and the methods that
will be used to accomplish them. In that sense, this Strategic Plan is an improvement over the
prior Strategic Plan, which was not as well organized or concise.
However, as originally issued, the Strategic Plan (2005 – 2009) contains only one measurable
target associated with the Taxpayer Service goal, making it very difficult to know what progress
the IRS planned to make in the 5-year period covered by the Plan. The IRS Oversight Board
approved the Strategic Plan with the expectation that the IRS would develop additional
measurable targets within 1 year. In response to the Oversight Board’s request, the IRS
submitted five long-term measures and targets to the Board for review and approval in
August 2006. The Board approved them in March 2007. Although the measures and targets
were not proposed within 1 year as the Board expected, they addressed the gap that had existed
in the Strategic Plan. The Board also directed the IRS to develop additional targets related to
improving customer service and modernizing its technology systems. We believe the new
targets, when considered together with the Strategic Plan, meet the intent of the GPRA in terms
of providing the road map the IRS intends to follow through 2009 and the objective criteria for
measuring its progress toward achieving its goals.
Although the Oversight Board had approved the new measures and targets for inclusion in the
Strategic Plan in March 2007, as of June 2007, the IRS had not updated the Plan to include them
or posted them on the IRS web site with the Strategic Plan. To be of use to the greatest number
of IRS stakeholders, we believe the new targets and measures (as well as the additional measures
required by the Oversight Board when they are completed) should be published on the IRS web
site on the same page as the current Strategic Plan. Taken together, the Strategic Plan and these
measures allow readers to identify what the IRS expects to accomplish over the next several
years and satisfy the major requirements of the GPRA and OMB Circular A-11.
We also determined some elements required by the Department of the Treasury are not included
in the Strategic Plan. While these elements should be included in future Plans, their omission
does not significantly diminish the overall quality or usefulness of this Strategic Plan.

Recommendations
We recommended the Chief Financial Officer post the approved IRS-wide strategic measures
and targets on the IRS web site on the same page as the current Strategic Plan. Any additional
measures developed by the IRS and approved by the Oversight Board should also be added to the
web site. Future versions of the Strategic Plan should contain quantifiable long-term measures
and targets for each of the strategic goals and address all Department of the Treasury
requirements.


                                                                                                   2
                The Development of Specific Long-Term Measures and Targets
                          Improved the Internal Revenue Service’s
                                Strategic Plan (2005 – 2009)



Response
The Chief Financial Officer agreed with our recommendations and proposed corrective actions to
address the issues identified in the report. These actions include posting the set of approved
enterprise-wide measures and targets on the IRS web site in the same section as the IRS Strategic
Plan and adding additional measures once they are approved by the IRS Oversight Board. In
addition, the Chief Financial Officer will review Department of the Treasury guidance and
incorporate those requirements in the next Strategic Plan. Management’s complete response to
the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                               3
                      The Development of Specific Long-Term Measures and Targets
                                Improved the Internal Revenue Service’s
                                      Strategic Plan (2005 – 2009)




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Development of Specific Long-Term Measures
          and Targets Improved the Strategic Plan ......................................................Page 3
                    Recommendation 1:..........................................................Page 6

                    Recommendation 2:..........................................................Page 7

          Some Required Information Was Missing From the
          Strategic Plan ................................................................................................Page 7
                    Recommendation 3:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
       The Development of Specific Long-Term Measures and Targets
                 Improved the Internal Revenue Service’s
                       Strategic Plan (2005 – 2009)




                      Abbreviations

GPRA            Government Performance and Results Act of 1993
IRS             Internal Revenue Service
OMB             Office of Management and Budget
                  The Development of Specific Long-Term Measures and Targets
                            Improved the Internal Revenue Service’s
                                  Strategic Plan (2005 – 2009)




                                         Background

The Government Performance and Results Act of 1993 (GPRA)1 was enacted to bring to Federal
Government agencies more accountability in how they spent their budgets and how well they
fulfilled their public service roles. Congress believed the American people were losing faith in
the Federal Government’s ability to deliver vital public programs due in part to waste and
inefficiency in Federal Government programs. Congress further believed its efforts and the
efforts of Federal Government managers to address these issues were often hampered by the lack
of clearly defined program goals to measure program accomplishments. Without clearly defined
program goals, it was difficult for the public to know whether the agencies were making real
improvements or simply trying different approaches. Therefore, Congress designed the GPRA to
require Federal Government agencies to develop a strategic approach for setting priorities and
goals.
The GPRA requirements included three main components: strategic plans describing the overall
long-term goals and objectives for the agency, annual performance plans detailing which goals
and programs would be the priority for that year, and annual performance reports describing how
well the agencies met their goals for the year. Congress expected the GPRA requirements would
enable Federal Government agencies to improve their delivery of services and provide the public
with annual reports on their progress.
When developing their strategic plans, agencies are expected to follow the GPRA and Office of
Management and Budget (OMB) Circular A-11 (Preparation, Submission and Execution of the
Budget). The strategic plans are to include the agency’s mission statement, general goals and
objectives, and the strategies the agency will use to achieve those goals and objectives.
According to the Government Accountability Office, the strategic planning process is “. . . the
starting point and foundation for defining what the agency seeks to accomplish, identifying the
strategies it will use to achieve desired results and then determining how well it succeeds in
reaching results-oriented goals and achieving objectives.”2
Federal Government agencies such as the Department of the Treasury must prepare an
agency-wide strategic plan that includes all of its bureaus and offices. Bureaus, such as the
Internal Revenue Service (IRS), also prepare strategic plans that support and expand upon the
agency strategic plan. Within the IRS, the Chief Financial Officer serves as the principal advisor
to the IRS Commissioner and Deputy Commissioners on financial matters. The Chief Financial


1
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
2
  Agencies’ Strategic Plans Under GPRA: Key Questions to Facilitate Congressional Review (GAO/GGD-10.1.16,
dated May 1997).
                                                                                                   Page 1
                   The Development of Specific Long-Term Measures and Targets
                             Improved the Internal Revenue Service’s
                                   Strategic Plan (2005 – 2009)



Officer’s Corporate Planning and Internal Control staff leads the development of the IRS’
Strategic Plan and the processes for determining, collecting, analyzing, reviewing, reporting, and
communicating the measures of IRS-wide performance, as well as integrating performance and
cost information. The IRS issued Strategic Plans in 2001 (the 2000 – 2005 Plan) and in 2004
(the 2005 – 2009 Plan).
The IRS Restructuring and Reform Act of 19983 made significant structural changes in the
management and oversight of the IRS and established the IRS Oversight Board. This Board was
created primarily to provide continuity and a focused, long-term perspective for the IRS. In this
capacity, the Oversight Board was also given the specific responsibility to review and approve
Strategic Plans of the IRS.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of the Chief Financial Officer during the period November 2006 through May 2007. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




3
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 2
                The Development of Specific Long-Term Measures and Targets
                          Improved the Internal Revenue Service’s
                                Strategic Plan (2005 – 2009)




                                Results of Review

The IRS’ Strategic Plan (2005 – 2009) complies with the major requirements of the GPRA,
OMB Circular A-11, and the Department of the Treasury and represents an improvement over
the prior Strategic Plan (2000 – 2005). The current Plan describes the IRS’ three strategic goals
(Taxpayer Service, Enforcement, and Modernizing the IRS) in a manner that is clear, easy to
understand, and concise. The goals are supported by detailed objectives and the methods that
will be used to accomplish them. In that sense, this Strategic Plan is an improvement over the
prior Strategic Plan, which was not as well organized or concise.
However, as originally issued, the Strategic Plan (2005 – 2009) contains only one measurable
target associated with its Taxpayer Service goal, making it very difficult to know what progress
the IRS planned to make in the 5-year period covered by the Plan. The IRS Oversight Board
approved the Strategic Plan with the expectation that the IRS would develop additional
measurable targets within 1 year. The IRS took 2 years to develop the additional measures and
targets, which the Oversight Board approved. We believe the new targets, when considered
together with the Strategic Plan, meet the intent of the GPRA in terms of providing the road map
the IRS intends to follow through 2009 and the objective criteria for measuring its progress
toward achieving its goals. In reviewing the Strategic Plan, we determined some elements
required by the Department of the Treasury are not included in the Plan. However, the omission
of these items does not significantly diminish the overall quality or usefulness of the Strategic
Plan (2005 – 2009).

The Development of Specific Long-Term Measures and Targets
Improved the Strategic Plan
When the IRS Oversight Board approved the Strategic Plan (2005 – 2009) in May 2004, the Plan
met the key provisions of the GPRA and OMB Circular A-11. For example, it describes the
mission, organization, external factors that can affect implementation of the plan and strategic
goals, and performance measures. For 2005 – 2009, the IRS’ strategic goals are:
       Goal 1 - Improve Taxpayer Service.
       Goal 2 - Enhance Enforcement of the Tax Law.
       Goal 3 - Modernize the IRS Through Its People, Processes, and Technology.
Each strategic goal is supported by more specific objectives, and each objective includes means,
strategies, and measures that are intended to gauge the progress in achieving the overall goal.



                                                                                           Page 3
                     The Development of Specific Long-Term Measures and Targets
                               Improved the Internal Revenue Service’s
                                     Strategic Plan (2005 – 2009)



Figure 1 shows the strategic goals, associated objectives, number of supporting means and
strategies, and measures for each goal.
                                    Figure 1: IRS Goals and Objectives
                                                 The IRS Mission
     Provide America’s taxpayers top-quality service by helping them understand and meet their tax
              responsibilities and by applying the tax law with integrity and fairness to all.

               Goal 1                                   Goal 2                                   Goal 3
     Improve Taxpayer Service                 Enhance Enforcement of the            Modernize the IRS Through Its
                                                      Tax Law                      People, Processes, and Technology

             Objectives                               Objectives                                Objectives
•   Improve Service Options for the       •   Discourage and Deter                 •   Increase Organizational Capacity to
    Tax Paying Public.                        Noncompliance With Emphasis on           Enable Full Engagement and
•   Facilitate Participation in the Tax       Corrosive Activity by                    Maximum Productivity of
    System by All Sectors of the              Corporations, High-Income                Employees.
    Public.                                   Individual Taxpayers, and Other      •   Modernize Information Systems to
                                              Contributors to the Tax Gap.             Improve Service and Enforcement.
•   Simplify the Tax Process.
                                          •   Ensure Attorneys, Accountants,       •   Ensure the Safety and Security of
   9 Means and Strategies.                   and Other Tax Practitioners Adhere       People, Facilities, and Information
   6 Measures.                               to Professional Standards and            Systems.
                                              Follow the Law.
                                                                                   •   Modernize Business Processes and
                                          •   Detect and Deter Domestic and            Align the Infrastructure Support to
                                              Offshore-Based Tax and Financial         Maximize Resources Devoted to
                                              Criminal Activity.                       Front-line Operations.
                                          •   Deter Abuse Within Tax-Exempt           12 Means and Strategies.
                                              and Governmental Entities and
                                              Misuse of Such Entities by Third        5 Measures.
                                              Parties for Tax Avoidance or Other
                                              Unintended Purposes.
                                             15 Means and Strategies.
                                             6 Measures.
Source: Strategic Plan (2005 – 2009).

The only specific target in the Strategic Plan in May 2004 is the Congressional requirement that
80 percent of all returns be filed electronically by 2007. This target is associated with
Goal #1 (Improve Taxpayer Service). Because the Chief Financial Officer’s staff considered
such targets more tactical than strategic and believed they were more appropriately covered in
annual plans, no quantifiable targets for the other two goals are included in the Strategic Plan.
For example, although one of the objectives under Goal #2 (Enhance Enforcement of the Tax
Law) is to ensure attorneys, accountants, and other tax practitioners follow standards and adhere
to the law, the Strategic Plan does not contain any target that the IRS will work toward. Readers
of the Plan are left to guess just how much improvement in this area the IRS will attempt to
achieve. Similarly, the objective to modernize information systems to improve service and
                                                                                                                  Page 4
                   The Development of Specific Long-Term Measures and Targets
                             Improved the Internal Revenue Service’s
                                   Strategic Plan (2005 – 2009)



enforcement (associated with Goal #3) also does not have any target associated with it. Targets
are essential to strategic planning because they:
    •    Provide direction to staff about where and how the IRS desires to improve in an area.
    •    Allow meaningful evaluation of progress because it is immediately clear whether the
         targets have been met or if little progress has been made.
    •    Facilitate accountability for the level of results achieved.
To be effective, these targets should be readily quantifiable and precise, much like the target to
have 80 percent of all returns filed electronically by 2007.
In response to the Oversight Board’s request, the IRS submitted five long-term measures and
targets to the Board for review and approval in August 2006. The Board approved them in
March 2007 and, although the measures and targets were not proposed within 1 year as the
Board expected, they addressed the gap that had existed in the Strategic Plan. Figure 2 shows
the approved long-term measures, target values, and target dates.
               Figure 2: Approved Long-Term Measures and Target Values
                            Long-Term Measure                      Target Value        Target Date
                 Electronic Filing Participation Rate4               80 percent            2012
                 Individual Taxpayer Satisfaction Index            69 (out of 100)         2009
                 Employee Engagement5                              4.0 (out of 5.0)        2009
                 Voluntary Compliance Rate                           86 percent            2009
                Nonrevenue Enforcement Activity Index6             Index of 137.6          2009
               Source: IRS Oversight Board.

In addition to approving the listed measures, the Board required the IRS to:
    •    Identify two additional measures to supplement the Individual Taxpayer Satisfaction
         Index: one to assess customer satisfaction with taxpayer service programs and another
         to assess taxpayer satisfaction with IRS enforcement operations.
    •    Recalibrate the target score for the Employee Engagement measure because a new
         survey instrument will be used beginning this year and it needs to be compatible with the
         prior scoring system.


4
  This is the same measure as that contained in the Strategic Plan (2005 – 2009) for Goal #1; however, the date was
extended from 2007 to 2012.
5
  This is the degree of employees’ motivation, commitment, and involvement in the mission of the organization.
6
  This is a measure of enforcement activities that do not have a direct impact on tax revenue, such as Criminal
Investigation Division and Tax Exempt and Government Entities Division activities.
                                                                                                            Page 5
                The Development of Specific Long-Term Measures and Targets
                          Improved the Internal Revenue Service’s
                                Strategic Plan (2005 – 2009)



   •    Develop a specific measure to assess its progress in modernizing its technology systems.
These additional measures will further enhance the IRS’ ability to evaluate its progress in
achieving its strategic goals. For example, the IRS acknowledges that it depends on its
information technology systems to deliver its mission and that past and current limitations
“. . . have restrained the IRS’ ability to make its business processes more responsive to its
mission needs, to Congressional and Executive expectations, and to the desire of taxpayers for
better service.” The IRS modernization efforts are important, and the IRS has devoted
significant resources to modernization. In Fiscal Years 2005, 2006, and 2007, the IRS received
appropriations for its business systems modernization in the amounts of $285 million,
$204 million, and $248 million, respectively. We believe the proposed new measures and targets
are important to both the IRS and its stakeholders in determining whether it is making real
progress in accomplishing key goals.
Although the Oversight Board had approved the new measures and targets for inclusion in the
Strategic Plan in March 2007, as of June 2007, the IRS had not updated the Plan to include them
or posted them on its web site with the Strategic Plan. The Chief Financial Officer wanted to
wait until the three new measures and targets required by the Oversight Board were developed
and approved before posting all of them to the web site. However, it is unclear when these new
measures and goals will be designed and approved. To be of use to the greatest number of IRS
stakeholders, we believe the new targets and measures (as well as the additional measures
required by the Oversight Board when they are completed) should be published on the IRS web
site on the same page as the current Strategic Plan. Taken together, the Strategic Plan and these
measures allow readers to identify what the IRS expects to accomplish over the next several
years.

Recommendations
Recommendation 1: The Chief Financial Officer should post the approved IRS-wide
strategic measures and targets on the IRS web site on the same page as the current Strategic Plan.
The additional taxpayer service, recalibrated employee engagement, and expected modernization
measures should also be added to the web site once they are approved by the Oversight Board.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer will post the set of approved enterprise-wide measures and targets on
       the IRS web site in the same section as the current Strategic Plan and will add additional
       measures within a reasonable period of time once they are approved by the Oversight
       Board.




                                                                                           Page 6
                The Development of Specific Long-Term Measures and Targets
                          Improved the Internal Revenue Service’s
                                Strategic Plan (2005 – 2009)



Recommendation 2: The Chief Financial Officer should ensure future Strategic Plans
include quantifiable long-term measures and targets for each of the IRS’ strategic goals.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer will ensure consistency with Department of the Treasury guidance in
       developing the next Strategic Plan.

Some Required Information Was Missing From the Strategic Plan
While it complies with the major requirements of the GPRA and OMB Circular A-11, the
Strategic Plan does not comply with all Department of the Treasury requirements. Because the
Plan was approved by the Department of the Treasury without some of the required elements, the
IRS Chief Financial Officer staff did not believe it was necessary for the Plan to include:
   •    Information on how or where to send comments or questions.
   •    A specific list of major management challenges and high-risk areas.
   •    A description of consultations conducted with Congress while developing the Strategic
        Plan.
   •    The timetable/schedule for future program evaluations.
Although the omission of these items does not significantly diminish the overall quality or
usefulness of the Strategic Plan, the items are required and the IRS should include them in the
next version of the Plan. The contact information facilitates better communication between the
IRS and the public about the specifics of the Plan. An appendix that lists the major management
challenges and high-risk areas and also provides cross-references to the pages in the Strategic
Plan where the issues are discussed would make the Plan more useful to those not readily
familiar with the issues facing the IRS. Furthermore, the Department of the Treasury Strategic
Management Manual requires a description of the progress in addressing the management
challenges and high-risk areas, along with any relevant performance measures.
While the current Strategic Plan describes the stakeholder groups the IRS consulted with during
the development of the Plan, it does not include a description of IRS consultations with Congress
as listed in the Strategic Management Manual. This information would allow readers to
understand that the IRS established its goals and priorities in consideration of Congressional
interests. Finally, the Strategic Plan lists the types of evaluations the IRS is subject to, but it
does not contain a schedule of future evaluations as specified by the Strategic Management
Manual. Such a schedule allows readers of the Strategic Plan to know which areas will be
reviewed and when and provides some commitment that programs will be appropriately
reviewed.



                                                                                            Page 7
               The Development of Specific Long-Term Measures and Targets
                         Improved the Internal Revenue Service’s
                               Strategic Plan (2005 – 2009)



Recommendation
Recommendation 3: The Chief Financial Officer should ensure future Strategic Plans
address all Department of the Treasury requirements.
      Management’s Response: The IRS agreed with this recommendation. The Chief
      Financial Officer will ensure consistency with Department of the Treasury guidance in
      developing the next Strategic Plan.




                                                                                       Page 8
                   The Development of Specific Long-Term Measures and Targets
                             Improved the Internal Revenue Service’s
                                   Strategic Plan (2005 – 2009)



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of the audit was to determine whether the IRS’ Strategic Plan
(2005 – 2009) (dated June 2004) meets the requirements of the GPRA1 and OMB Circular A-11
(Preparation, Submission and Execution of the Budget) to establish the IRS’ highest priority
goals and identify strategies to achieve them. Specifically, we compared the current Strategic
Plan to the prior Strategic Plan (2000 – 2005) to determine how they differ, whether
improvements were made, and whether any of our prior recommendations were acted on and are
reflected in the current Strategic Plan. To accomplish our overall objective, we:
I.      Reviewed the current Strategic Plan and related annual plans to determine whether the
        requirements of the GPRA and OMB Circular A-11 were addressed and whether the
        Strategic Plan contained:
        A. A comprehensive mission statement covering the major functions and operations of
           the agency.
        B. General goals and objectives, including outcome-related goals and objectives, for the
           major functions and operations of the agency.
        C. A description of how the goals and objectives are to be achieved.
        D. A description of how the annual performance goals included in the annual plan relate
           to the general goals and objectives in the Plan.
        E. An identification of those key factors external to the agency and beyond its control
           that could significantly affect the achievement of the general goals and objectives.
        F. A description of the program evaluations used in establishing or revising general
           goals and objectives, with a schedule for future program evaluations.
II.     Determined what guidance the IRS followed while developing the Strategic Plan.
        A. Interviewed the Chief Financial Officer’s staff to determine the guidance used to
           prepare the Plan.
        B. Interviewed Department of the Treasury staff to determine whether they provided any
           strategic planning guidance to Department of the Treasury bureaus and whether the
           IRS solicited and considered their views.


1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 9
                  The Development of Specific Long-Term Measures and Targets
                            Improved the Internal Revenue Service’s
                                  Strategic Plan (2005 – 2009)



III.    Determined whether the IRS considered the views of interested and potentially affected
        parties.
        A. Determined whether the IRS solicited and considered the views of the appropriate
           Congressional staff and other stakeholders when developing its Strategic Plan.
        B. Determined whether the Plan addresses the five initiatives listed on the President’s
           Management Agenda.
        C. Interviewed members of the IRS Oversight Board and determined their involvement
           in the creation and assessment of the Strategic Plan. We determined whether the
           Plan addresses the 3 critical issues relating to its long-term performance as
           documented in the Oversight Board’s 5-year plan.
        D. Determined whether the Strategic Plan addresses the 10 Major Management
           Challenges identified by the Treasury Inspector General for Tax Administration and
           2 high-risk areas identified by the Government Accountability Office and whether the
           IRS developed quantifiable performance measures for these 12 items.
        E. Identified the IRS programs that have been reviewed by the OMB (using the Program
           Assessment Rating Tool)2 prior to June 2004.
IV.     Compared the Strategic Plan (2005 – 2009) to the Strategic Plan (2000 – 2005) to
        determine whether the major functions of the IRS were covered and whether performance
        goals had been established.
        A. Determined whether the major functions of the IRS are included in the Plan and
           appropriately covered.
        B. Reviewed IRS funding to determine whether there are any programs or major
           activities not covered.
        C. Determined which performance goals had been changed and why.
        D. Evaluated any new performance goals to determine whether they adequately address
           the mission and goals of the IRS.
        E. Determined whether the key factors that could affect achievement of the IRS’
           strategic goals were presented differently in the new Strategic Plan and, if so,
           determined whether the changes were an improvement.
        F. Determined whether the required description and list of program evaluations were
           presented differently in the new Plan.


2
 The Program Assessment Rating Tool was developed by the OMB and is meant to provide a consistent approach to
evaluating Federal Government programs during budget formulation.
                                                                                                    Page 10
               The Development of Specific Long-Term Measures and Targets
                         Improved the Internal Revenue Service’s
                               Strategic Plan (2005 – 2009)



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Kevin P. Riley, Audit Manager
Gene A. Luevano, Lead Auditor
Ken E. Henderson, Senior Auditor
Yasmin B. Ryan, Senior Auditor




                                                                                    Page 11
               The Development of Specific Long-Term Measures and Targets
                         Improved the Internal Revenue Service’s
                               Strategic Plan (2005 – 2009)



                                                                            Appendix III

                         Report Distribution List

Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Associate Chief Financial Officer for Corporate Planning and Internal Controls OS:CFO:CPIC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Financial Officer OS:CFO




                                                                                    Page 12
    The Development of Specific Long-Term Measures and Targets
              Improved the Internal Revenue Service’s
                    Strategic Plan (2005 – 2009)



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 13
The Development of Specific Long-Term Measures and Targets
          Improved the Internal Revenue Service’s
                Strategic Plan (2005 – 2009)




                                                     Page 14
The Development of Specific Long-Term Measures and Targets
          Improved the Internal Revenue Service’s
                Strategic Plan (2005 – 2009)




                                                     Page 15
